     :,




             QUALITY ASSURANCE 

          INDEPENDENT PHYSIOLOGICAL

                lABORATORIES





             tIlVICES'.
                          UJ'




'0


          ..1t cl3C




OFFICE OF INSPECTOR GENERAL
OFFICE OF EVALUATION AND INSPECTIONS
                                       OCTOBER 1990
       QUALITY ASSURANCE 

    INDEPENDENT PHYSIOLOGICAL

          LABORATORIES





  ~ c;tIlVI    ES'.
                      UJ'




   ..1t~clia



OFFICE OF INSPECTOR GENERAL
OFFICE OF EVALUATION AND INSPECTIONS
                                       OCTOBER 1990
        QUALITY ASSURANCE 

      INDEPENDENT PHYSIOLOGICAL

            lABORATORIES





                     Richard P. Kusserow
                     INSPECTOR GENERAL




OEI- 03. 88. 01400                         OCTOBER 1990
                               EXECUTIVE SUMMARY

PURPOSE

The purpose of this inspection was to assess quality assurance in Independent Physiological
Laboratories (ILs) by examining thee aspects of the industr: regulation , personnel
qualifications, and equipment stadads.

BACKGROUND

Medicare coverage for IPLs was established in Januar 1979 when the Health Cae Financing
Administration s (HCFA) Offce of General Counsel (OGC) determined that IPL services
qualified for reimbursement under TItle XVIII of the Social Security Act. The OGC ruling
said IPL services qualified for Medicare Par B reimbursement if (1) the laboratory meets all
State and local licensure requirements, (2) the diagnostic services ar ordered by a referrng
physician , and (3) the services are determined to be reasonable and necessar by the Medcare
carer.
Pror to the OGC ruling, HCFA policy disqualfied IPLs because they had to be certified for
Medicare parcipation and conditions for parcipation had not been established. These
standards still have not been developed.

The HCFA defines IPLs as " .laboratories operating independent of a hospital, physician
offce, or rura clinic.... " Tests IPLs typicaly conduct include ultrasound, pulmonar function
cardiac monitorig, and a varety of other diagnostic procedures.

METHODOLOGY

We collected information from four sources: (1) State agencies and health deparents, (2)
health care and IPL industr experts, (3) a random selection of IPLs, and (4) Medcare carers.

FINDINGS

The Definition of "Independent       Physiological Laboratory " is Unclear

No uniform definition exists of " physiological" as it relates to IPLs. The HCFA has never
clarfied types of covered IPL tests, acceptable testing sites or standards and conditions of
coverage for each test, thus fostering confusion among IPLs and carers.

No Assurance Of Satisfactory   IPL     Perfonnance Exists

We found no uniform and acceptable set of national standards defining satisfactory IPL
performance. Specifcally, the industr lacks (1) Federal or State oversight of IPL activities,
(2) uniform testing standards or quality control measures, and (3) standads regarding operator
training and qualifications.

Concerns About   IPLPerformance Are Pervasive

Nearly 78 percent of the respondents who voiced definitive opinions expressed serious
concerns about the quality and accuracy of IPL services. The major reason cited for these
concerns was lack of regulating IPL operations.

RECOMMENDATIONS

      The HCFA should issue Medicar coverage guidelines and instrctions clarfying (1)
      what the term " physiological" means with respect to IPLs, (2) what tests IPLs ar al­
      lowed to perform , and (3) what testing sites ar permissible.

      The HCFA should promote stronger quality assurance in IPLs though regulation or cer­
      tification. This could be accomplished though anyone or a combination of the follow­
      ing options: (1) Federal regulation, (2) State regulation , or (3) an independent
      certfication progr. The cost of such regulation or certfication should be financed by
      provider fees. Elements common to each option include "a quality control program, wrt­
      ten testing stadards, and creentialng staf or equivalent stadads.

COMMENTS AND OIG RESPONSE

Comments were received from both the Public Health Service (PHS) and HCFA. Although
PHS expressed support for stronger quality assurance in IPLs, they felt our respondents were
unaware of Foo and Drug Administration safeguards to assure the safety and effcacy
diagnostic equipment. The HCFA felt our report failed to provide convincing evidence to
justify our recommendations, and they have initiated an independent review of IPLs to
determine if standards should be developed.

We acknowledge the Foo and Drug Administrtion s effort in equipment safety and
effectiveness, but we believe regulation or certifcation of the service itself would promote
stronger quality assurance. In response to HCFA' s comments, we feel the continued lack of
quality assurance in IPL services is untenable and urge implementation of our
recommendations. However, we have modifed the recommendation to alow grater
flexibility in achieving this result.
                      ............. ...............
                         ......... ......           ....... .......
                                          .................               ..... ...........
                                                            ...... ...........       ..... .......         .......
                                                                                                   ...........
                                                                                            ...... ...         .... ......
                                                                                                             ......        ..... ...
                                                                                                                     .... .......
                                                                    .... ..... ..... ........... ............ ...... ....... ... .............




                                               TABLE OF CONTENTS


EXECUTIVE SUMMARY

NTRO D U CTIO N 
                                                                                                                ...................... 1




FI N DI N G S........ 




R E CO M M EN DATI         0 NS . ................ ...... ..... ........... ..... ....... .....                                        ................. 12

CO M M E NTS      ............ ... ........ .... ......... .... .......                                                          .................... 14

APPENDIX
                        ...                                                                g.,




                                           INTRODUCTION

BACKGROUND

The Health Car Financing Admnistration (HCFA) defmes independent physiological
laboratories (IPLs) " as laboratories operating independent of a hospital, physician s office or
rural clinic. " Pror to Januar 1979, Medcar did not cover services provided by IPLs.
Medicare disqualified IPLs because they lacked certfication and conditions for paricipation
of these entities had not been established. Reimburement was prohibited whether IPLs
submitted claims for their services dictly to Medicar Par B carers or the charges were
included in physicians ' clais.

Coverage was established when the HCFA Offce of Genera Counsel (OGC) determned that
IPL services qualifed for reimbursement under section 1861(S)(3) of Title XVIII of the Social
Security Act. According to the OGC ruling, IPL services qualifed for Medicare Par B
reimbursement if (1) the laboratory meets al State and local licensure reuirements, (2) the
diagnostic services are ordered by a referrng physician, and (3) the services are determned to
be reasonable and necessar by the Medcare carer.

Typical IPL services include ultrasound, pulmonar function tests, cardiac monitorig, and a
varety of other diagnostic procedurs. These tests differ from those performed by
independent clinical laboratories (ICLs) in that bodly functions ar teste (e. bloo flow

lung capacity, hear rate) rather than bodly fluids or tissues (e. , bloo, urine, Pap smear).
The IPL procedures requir the patient s presence whereas clinical laboratory tests are
performed on a sample taen from the patient. Typically, procedures are performed in a
varety of locations including frestanding centers, offce space rented from physicians, and
mobile units.

Ultrasound devices are used to depict a patient s internal organs by sending high-energy
sound-waves into the body producing echoes as they encounter diferences in tissue strcturs.
The data produced by the echoes can be trsmitted into an image, which can be shown on a
video scren or recorded on                    tape. Images can be recorded in color as well as black and white.
Health care practitioners use ultrasound in a 
                ide range of specialties, such as cardiology,
gynecology, and vascular surgery. Typically, the tests ar conducted by specially trained
individuals known as ultrasonographers or, more commonly, sonogrphers.

Cardiac monitoring is a diagnostic technique which records a patient s cardiac activity during
extended periods of time. This procedure can pinpoint cardiac irgularties, or even a hear
attack , of which the patient may not be awar. Cardiac recorders are small, lightweight
devices with electrodes fastened to the patient s body. All cardiac activity is recorded on tape
which can be evaluated by a cardiologist or sent to an IPL which specializes in €ardiac
analysis.
Regulation of clinical testing began with TItle XVIII of the Social Securty Act which imposed
standards and conditions of coverage on clinical laboratories under the Medicare and
Medicaid programs. In 1967, Congrss passed the Clinical Laboratory Improvement Act
(CLIA) to regulate the interstate activities of independent clinical laboratories (lCLs).
Congress strngthened CLIA in 1988 with amendments which mandated standads in certn
kinds of testing. In 1981 , Congrss passed the Consumer- Patient Radiation Health and Safety
Act. This law established minimum standads for State accrtation of radiologic educational
programs and State certification or licensure of persons who conducted tests using radiant
energy.

No Federal laws exist which regulate the perfonnance of noninvasive physiological testing.
Severa Federal laws and State statutes have been enacted to regulate clinical and radiant
testing. The IPLs which engage in such tests ar subject to regulation of those aspects of their
operations. However, the regulation does not extend to any noninvasive physiological tests
conducted by IPLs.

This inspection was originally suggested by HCFA. They raised concerns about the
perfonnance of IPLs because of the lack of regulations and what they perceived as
inconsistent practices by carers regarding IPL operations.

A May 1989 OIG report entitled, "Financial Argements Between Physicians and Health
Care Businesses " (OAI - 12- 88- 01410), detas effects of physician ownership and
compensation arngements with health care entities, including IPLs. This study indicated
that IPLs operated with little or no regulation or stadads imposed by either government or
the IPL industr itself. As a result, many health care experts and organizations expressed
concerns about IPLs and the quality of their diagnostic testing services. Accordingly, we
decided to conduct a study focused on regulation of IPLs.

During 1987, Medicar paid approximately $290 millon in Par B reimbursements for
noninvasive diagnostic testing. Although IPLs perform a varety of procedurs,
tests-Holter monitoring, abdominal ultrasound and peripheral vascular studies-accounted
for about two-thirds of these reimbursements. In 1987, a tota of 1, 674 IPLs had Medcar
provider numbers.


PURPOSE

The objectives of this inspection were

      to determine the nature and extent of regulatory practices regarding IPLs and the
      services they provide;

      to determine the qualifications of personnel who conduct tests and the perceived effect
      on the accuracy of testing if such qualifications appear to be lacking; and
     to assess the integrty of testing in IPLs by examining practices and standads related to
     physiological equipment.


METHODOLOGY

We obtaned information frm    a varety   of sources. These sources included State agency and
health deparent offcials, health care and IPL industr experts, a radom selection of IPLs,
and Medicar carers.


We collected infomiation from 68 State agency and health deparent representatives in all 50
States and the Distrct of Columbia. These contacts were designed to determne the existence
of any present or planned State laws afecting IPL operations. In some cases, we were
referred to additional agencies in the State.

We obtaned information frm     a wide varety of health car           organiztions. We
                                                             experts and
based selections on their knowledge of the IPL industr. Included among these contacts were
a number of manufacturers of noninvasive diagnostic equipment tyicaly used in IPLs.

Health care organizations and associations providing information and material included the
American College of Cardiology, the American College of Radiology, the Joint Commssion
on Accreditation of Healthcare Organizations, the National Electrcal Manufacturrs
                                                                     

Association , and the American Institute of Ultrasound in Medcine. (See the appendix for a
complete listing of organizations and associations contacted.

We contacted a sample of IPLs to ascenai the day-today operations of these entities,
concentrting on types of diagnostic tests performed, where perfonned, and kinds of
equipment used. Other areas reviewed includoo any regulation of their operations by a State
or other governmental agency, staf qualfications and trning, and quality contrl practices.

A tota of 35 IPLs in 8 randomly-selected Medcare carer servce aras were contacte.           The
eight carers selected were Travelers of Connecticut; Empire Blue Shield of New York;
Nationwide of West VIrginia; Blue Shield of Florida; Blue Shield of Michigan; Blue Shield of
Kansas City; Blue Shield of Arkansas, and Occidental of Calfornia. The carers accounted

for approximately 30 percent of tota   Medcar payments for Par     B services in 1986. We also
contacted each carer to determine if it had any special policies to monitor the activities of the
IPLs in its coverage area.
                                 ...




                                         FINDINGS


The Definition of "Independent Physiological Laboratory " is Unclear

No unifonn definition exists of " physiological" as it relates to IPLs. The HCFA has never
clarfied types of covered IPL tests, acceptable testig sites, or stadads and conditions of
coverage of each test. This has fostered confusion among IPLs and carers.

We encountered a diverse aray of entities operating as IPLs. These ranged from large
corporations conducting a multitude of diagnostic testing to sole ownership enterprises
performng an occasional EKG. Equipment ra the gamut from a $100 bloo pressure cuff to
almost a milion- dollar magnetic resonance imagig (MI) device. A wide varety of IPL
types were categorized by testing sites. Moreover, despite HCFA' s defmition of an IPL as a
laboratory operating " .independent of a hospita, physician s office, or ru   health clinic...
we found a number of IPLs conducting tests in hospita settings and in physicians ' offces.
The HCFA's guidelines provided no diction on     where  the tests could be perfonned or exactly
what was meant by the phrse, " operating independent...

On the advice of a medcal consultant, we intended to exclude from this study any diagnostic
services which were invasive or potentially harul to a patient. Thus, we proceeded on the
basis that invasive and radiant tests, such as bloo tests and x-rays, were not "physiological"
tests and would not be included in our study. However, we leared that many IPLs were
conducting these tests. We included ultrasound as a noninvasive test even though a fonn of
radiation is used in the procedure. The tye of radiation used, however, is " non- ionizing " and
is considered to be harless to the patient.

In 1979, when OGe determned that IPL services qualified for coverage, the only
requirements were the three stipulations referred to previously (see Introduction). In its
decision , OGC did not offer a definition of the term, " physiological. " It did, however, cite
two noninvasive services as examples of the types of tests for which payment could be made:
electrocardiographs (EKGs) and electroencephalogram (EEGs). The OGC opinion further
noted, " Carers shall advise all affected independent laboratories that HCFA is studying the
type of services furnished by these independent laboratories and that standards and conditions
for coverage of some or all of these services may be published by regulation.

To date, an elaboration of those " standas and conditions " has not been delineated, either in
regulations or in HCFA guidelines. As a result, considerable confusion exists with regard to
defming an IPL, tests permitted, and IPL qualifcations.

One carer indicated it would issue an IPL provider number to an entity which. did clinical
and radiant testing. Another said it would attempt to categorize the entity as a physician
office and issue a provider number accordingly.
One carer asked its HCFA regional offce to clarfy the kinds of tests which IPLs could
perform. The carer noted that IPLs in its service ara were conducting the following tests:
doppler flow studies, ultrasounds, EKGs, EEGs, pulmonar function tests, MRIs, and
computerize axial tomogrphy (CAT) scans.

The regional offce responded that a specific list of such services has never existed, other than
the reference to EKGs and EEGs. The response furer noted: " The responsibilty for
defining the tests included has been left to the Medcare carers. A practical defmition might
be that any test which is a clinical laboratory or radological test cannot be considered as a
physiological test. To that extent, we would disagr with your inclusion of cat scans as being
physiological, since we consider them to be a radiological proedure.

Our study encountered a bewildering varety of entities. Some actual examples:

      One of the IPLs we interviewed conducted ultrasound tests, mammographies, and tests
      involving nuclear medicine.

      A representative of a chain of diagnostic testing centers advised us that his centers were
      strctured as physicians ' offces rather than IPLs in order to bypass restrctive laws in
      the States where his centers were located.

      One durable medical equipment company had to obtan an IPL provider number
      because it occasionaly perfonned EKGs. In 1988, the company had perfonned only
      four EKG tests.

      One IPL defied description. It acted 
               s a " middleman " by obtaining referrs from
      physicians and contrcting                out thos   referrals to an IPL. The company itself maintaned
      no staff or equipment.

We attempted to characterize each of the 35 IPLs contacted accordig to types of tests
performed, testing locations, and physician- diected or not. We classified the tyes of tests
into four categories: (1) one tye of noninvasive test only (such as a cardiac monitor), (2)
both invasive and noninvasive tests conducted, (3) both radiological and noninvasive tests
conducted (such as mammogr and ultrasound), and (4) multiple noninvasive tests (such as
ultrasound and pulmonar function).
                                       SUMMARY OF IPL CONTACTS


              TYPES OF TESTS                             NUMBER OF IPLS


                One tVDe onlv
                  Invasive & noninvasive
                  Radiolo ical & noninvasive
                  MultiDle noninvasive

              TESTING LOCATIONS
                  StationaI
                  Mobile onlv
                  Mobile & stationar
                  HosDital settin

              ORGANIZATION
                  Phvsician- diected
                  Non Dhvsician- directed

              . Includes   equipment   lea to physicia' offces, tests conducte by IPL
              staff inlea     space,   and tets analyzed in IPLs afte being   peonned in
              physicians ' offces.




No Assurance Of Satisfactory IPL Perfonnance Exists

Our study found that no uniform and acceptable set of national stadas defming satisfactory
IPL performance exists. Specifcaly, the industr lacks: (1) Federal and State regulation of
IPL activities, (2) uniform testing stadads or quality control measurs, and (3) stadads
regarding operator training and qualifications. We discuss these weakesses in furer deta
below.

Lack of Federal and State Regulation

No Federal laws exist affecting the performance of noninvasive physiological testing and
there is virtally no legislation among the States. Severa State respondents indicated their
legislatures were considering measures to regulate noninvasive physiological testing.

We also asked State respondents three questions: (1) Should IPLs be regulated? (2) Should

                         Should IPL equipment be subject to mandatory quality control
IPL staf be certified? (3)
checks? More than 80 percent of those responding answered " yes " to all             th
                                                                            questions. One
typical comment was, " We regulate barber shops in this State. Why not IPLs?"
As of July 1989, three States (Kentucky, Marland, and West VlTginia) had enacted legislation
affecting the perfonnance of noninvasive physiological testing, exclusive of pulmonar
function testing. A summar of applicable provisions follows:

     Kentucky     all medical laboratories must be licensed and are subject to periodc
     inspection. Each laboratory must establish a quality control progr acceptable to the
     State. Personnel qualifications may be prescrbed at a later date.

     Maryland       cited elsewhere in this report, the Marland law regulates equipment rather
     than facilities. This law regulates only equipment costing more than $600, 00, no
     matter where the testing is conducted.

     West Virginia     similar in most respects to the Kentucky law. However , West Virgiia
     requirs that laboratory staff must be licensed and certfied.

The only guidelines HCFA has issued regarding IPLs ar the provisions relating to service
coverage and a prohibition against durable medical equipment (DME) companies from
owning IPLs. (This prohibition stems from confct-of-interest situations in which IPLs were
perfonnng oximetr tests for financially related DME companies. Oximetr test results are
needed before oxygen can be prescrbe for a Medcare beneficiar.

Only one of the eight carers   contacted has a systematic plan for monitoring the IPLs in its
service area. This carer conducts an integrty check on IPL    owners before issuing a provider
number, after the IPL has been operating for 6 months, a review of their services is
automatically scheduled. The other carers review an IPL' s activities only in response to a
specific complaint or in reaction to a question arsing during proessing an IPL' s claim.

Two carers require IPL directors to be physicians. One   carer requires IPL staf   to be
certfied in accordance with local laws.

Lack of Unifonn Testing Standards or Quality Control Measures

We contacted a wide varety of health car organizations and expert representing professional
societies aligned with specifc fonns of diagnostic testing, equipment manufacturers,
credentialing organizations, and public interest groups. Thireen experts said noninvasive
physiological testing-no matter where the testing was performed-lacked unifonn testing
standards or quality control measures.

Ultrasound tests, in parcular, were singled out as lacking uniform perfonnance stadards or
quality control measures. Some tyical comments were:

       There is no standardized protocol for doing ultrasound tests.

       Other than ultrasound, there are fairly well docwnented quality control procedures.
       There is no independent standrd that each manufacturer (of ultrasound equipment)
      can be measured against.

       Ultrasound is more of an art than a science.

Several respondents blamed the Foo and Drg     Admnistrtion (FA) for      faiing to establish
standads for ultrasound testing. One expert noted, "FDA has no image quality standads on
ultrasound equipment.

The 1976 amndments to the Federal Foo, Drg, and Cosmetics Act empowere FDA to
regulate medcal equipment devices. One function grted FDA was to develop perfonnnce
standads for new medcal devices. The amndments penntted FDA to regulate new
equipment for marketing if the equipment was substatially equivalent to prenactment
devices. Such equipment may be marketed subject to the same regulatory contrls as their
preenactment predecessor devices.

Severa Genera Accounting Offce (GAO) studies as well as a reent OIG study, "Home
Testing Devices: FDA Clearce and Monitoring Activities " (OAI- 12- 89- 01360), found that,
although perfonnance standas for medical devices had not ben developed, FDA has
safeguards in place to assure the safety and effectiveness of equipment. Prmaly, FDA uses
its own drt guidance instrctions to manufacturers and voluntar stadards to evaluate the
perfonnance of medical devices.

During the inspection, we encountered a number of examples of perfonnance standards which
we considered laudable. For example:

     The American College of Radiology Task Force on Standads Settig       developed a
     14- point perfonnance standard on mammogrphy screening. Not only does the stadad
     stipulate technical equipment requirements, but it also cites goals, indications, contra­
     indications, frequency guidelines, and qualifications for both technicians and
     technologists.

     A Marland law governing equipment costing in excess of $60, 00 mandates that
     every operator of such equipment establish a " Quality Assurance Program " detailing
     appropriate use and monitoring of the equipment. The. Marland law cites appropriate
     elements of the Program as including documentation of informed consent, checks for
     allergies, appropriate medical history prior to testig... " The law also requires
     equipment operators to hold monthly meetings to evaluate identified problems regarding
     their services.

     A midwestern IPL conducting more than 20 different ultrsound proced es produced
     an operating manual which details patient prepartion procedures, clinical indications,
     expected results, contraindications, and technical requirements for each test.
Whenever feasible, we obtained copies of wrnen perfonnance guidelines. These guidelines
ranged from detailed instrctions on how tests were to be conducted to employee leave
requests. In no case were these guidelines prepar as a result of State or other regulation.
All had been prepared voluntarly. For example, the American College of Cadiology has
promulgated standads on a number of diagnostic cardiovascular tests. However, no
requirement exists for any IPL to adopt these standas. Clearly, if the IPL felt no compulsion
to prepar performance guidelines and stadads or adopt existing ones, it did not do so.

As with perfonnance stadas, the quality control measur established by the IPLs we
contacted were strctly volunta. If an IPL did not want to implement quality contrl
procedurs or special techniques to verify accurcy, it did not do so. All the IPLs we
contacted, however, did engage in at least one quality contrl procedure. The rage and extent
of such procedures appear to var considerably from IPL to IPL.

Lack of Operator Training Standards and QualifICatons

At the 35 IPLs we contacted, 18 of 45 equipment operators or technologists were neither
registered by an accrediting organization nor registr-eligible (meeting all qualifications for
registration except passage of an examnation). Additionally, 15 of these IPLs did not require
their technologists to tae co tinuing education coures annually.

The IPLs are not required to hire registered technologists. With limited exceptions (noted
below), no laws or requird stadads exist denoting minimum educational or trning
standads for operators of medical equipment devices. The owner of a midwestern IPL stated,
 Some IPLs can just drag people off the stret and trn them. Personnel qualifications should
be the same no matter where the test is done-IPL, hospital, or wherever.

Pulmonar function testing is the only noninvasive physiological test subject to extensive
regulation. Twenty- four States along with Puerto Rico have legislation reuirg pulmonar
and respiratory technologists to be licensed by the State in which they practice and certed by
the National Board for Respiratory Car, the national credentialing body in that field.

In the two most frequently perfonned IPL tests-ultrsound and cardiac
monitoring-virualy no standads exist for trning, educational requirments, qualifications,
or accreditation. Every IPL is left on its own with respect to staf qualifications and
requirements. If an IPL chooses not to establish any qualifcations or crteria for its
employees, it is free to do so.

While only Utah and West VlTginia have laws afecting sonogrphers (who operate ultrasound
equipment), a number of other States ar considering legislation. The Utah law, which wil
become effective April 1991, requires sonographers to be licensed by the State and certfied
by a nationally recognized credentialing body. The West Virginia law , passed in April 1989,
requires all " lab technicians and lab technologists " to be licensed and certfied. Although this
    mandated implementation in 90 days, a State offcial advised us that full implementation
maybe delayed due to moneta problems.
No unifonn national standards exist regarding trning or qualifications of technicians who do
ambulatory electrocardiogrphy (AECG) analysis. Furter, no recognize credentialing
bodes offer certification examinations in AECG monitorig. One crntialng organization
does offer a " self assessment " examnation; however, this is offered solely on a volunta
basis.

Concerns About IPL Perfonnance are Pervasive

Interviews with health care experts, IPL operators, and State respondentsconfi       that
concerns about the quality of IPL services are pervasive. Nearly 78 percent of all respondents
who voiced definitive opinions expressed misgivings about IPL perfonnance. One expert
comment was tyical: " Regulation is neeed to assure the patient receives quality testing.

Among other reactions received from representatives of health care organizations and
associations were:

         There should be some standrds to protect the public.

           s eas to get false   negatives.


         Regulation would help to curb improper practices.

         You need quality control, and it should be mandtory.

Owners and operators of IPLs had similar comments. In genera, these respondents felt that
the lack of regulation of IPL operations fostere a climate which allowed some IPLs to skimp
on quality control if it suited them to do so. Some of the comments expressed were:

         Regulation would stop people who have no regard for quality.

         There are lots of bad apples out there.

         We need to keep incompetent people out of the business.

         Some IPLs have poor techniques. It would not hurt to have some oversight.

Although quality and accuracy of testing were the concerns most frequently expressed, related
issues were also voiced. These issues included safety of testing, reliabilty of equipment, and
qualifications of physicians and staff who operate equipment Severa respondents mentioned
potential hazards associated with IPLs which conducted tests using radiation and nuclear
medicine.

A number of experts deplored what they perceived as a lack of attention devoted to equipment
checks and preventive maintenance. One IPL owner noted, " Some companies use very old
equipment. " Another interviewee stated Doctors generally buy cheap equipment and use
poorly trned staff to operate it.

Three respondents were critical of the qualifications of physicians who conducte tests. One
expert said, " One-third of all imaging proedures are perfonned by non-qualified physicians.
Another stated, " Doctors should be crdentialed in the specialty in which they do testing.

Of 17 health car         who expressed an opinion, 15 favore minimum educational and
                   experts
trning stadards and mandatory   crentialng for technologists who operate physiological
testing equipment. Typical comments were:

       Poorly trained, uncredentialed laboratory techs are one of the major problems
      affecting the quality of physiological testing.

       If an IPL ha only registered people, it would indicate tbey are concerned about
      quality.

       If a tech is considered competent, but is not credentialed, then there is something
      missing in his training.
                       RECOMMENDATIONS


The HCFA should issue Medicare coverage guidelines and instructions for
IPLs. The instrctions should clarfy (1) what the term "physiological" means
with respect to IPLs, (2) what tests IPLs are allowed to perfonn to be included in
the IPL category, and (3) what testing sites ar permssible. These ditives         wil
enable carers to treat IPLs in a more unifonn and consistent manner.

The HCFA should promote stronger quality asurance in IPLs through
regulation or certification. This recommendation can be accomplished by any
one or a combination of the options listed below. However, any proposal adess­
ing quality assurace in IPL services should include these elements: (1) a quality
control program (2) wrtten testing stadads, (3) crdentialing of staf or
equivalent experience and trning, (4) continuing education or trning, and (5)
onsite inspection visits. These elements ar implicit in each of the options listed
below. The cost of such regulation or certfication should be financed by provider
fees.

        Federal Regulation
        The HCFA could seek legislation to impose national certfication stadads
        on IPLs along the lines of laws governing ICLs. Such stadards would
        address minimum sta qualifications and trning as well as mandatory
        quality control equipment checks. Periodc on site inspection visits would be
        required. These visits could be done by the same State agencies which
        survey ICLs. Costs could be offset by assessments agaist the inspected
        entities. Any IPLs which fail to meet minimum standads would be bared
        from Medicare parcipation. (If merited, these stadards also could be
        extended to physicians who conduct a large number of diagnostic tests in
        their offces.

        State Regulation
        The HCFA could seek legislation to require, as a condition of Medcar
        parcipation, that IPLs be regulate by   States. The legislation could
        establish a set of minimum stadas but still allow States considerable
        flexibility in determning the details of their qualty assurce programs,
        with enforcement conducted by each State. Perhaps the progrs now
        effect in Marland, Kentucky, and West Virginia could be used as a basis for
        strcturing these standards.



        Independent Certification
        In conjunction with industr groups, the HCFA could recognize an
        independent oversight organization to monitor and certify IPLS. (Lgislation
        may be needed to effect this approach. ) Certfication would be required
        before an IPL could paricipate in   Medcare. The Joint Com         n on
Accreditation of Healthcar Organizations (JCAHO) favors this approach.
According to the JCAHO, IPLs have many characteristics in common with
ICLs; many of the stadads established for ICLs could also apply to IPLs.
The JCAHO stadads used for hospita clinical, radiant, and physiological
testing could be used as a model for an independent oversight program.
                                       COMMENTS


We received comments on the draft report from both the Public Health Servce     (PHS) and
HCFA.

The PHS expressed support for stronger qualty assurce in IPLs and included a number of
general and technical comments. Prmarly, PHS questioned whether our respondents were
fully awar of FDA' s procedures and safeguards designed to assure the safety and
effectiveness of diagnostic equipment, in parcular, ultrasound devices. The FDA has been
strving to achieve quality assurance in diagnostic equipment by promoting volunta
performance stadads. In association with a stadas organization, FDA has developed a
manual on ultrasound equipment perfonnce. In response, we feel our respondents were not
singling out FDA for criticism; rather, they were expressing frstration with a health care
system which they perceive as being less than perfect. As we indicate previously,
acknowledge FDA has safeguards in place to assur the safety and effcacy of equipment.

We have made certain revisions with regard to PHS' technical comments concerning FDA
procedures. The PHS had no comments on the reommendations.

The HCFA felt our report faied to provide convincing evidence to justify our
recommendations. Although HCFA declined to implement the recommendations, they have
initiated an independent review of specific kinds of IPLs to determine if standards should be
developed. Moreover, HCFA indicated a wilingness to consider the need for legislation if
their findings supponed such action.

In response to HCFA's comments, we believe the absence of quality assurance in IPL
operations is untenable. Medcare beneficiares have a right to expect a basic level of quality
performnce and, at the present time, such assurace with respect to IPLs does not exist. We
have, however, modfied our reommendations to provide more flexible mechanisms for
quality assurance, paricularly for options involving State governments or an independent
certfying entity.

We wish to thank PHS and HCFA for their comments, and we ar       pleased by   their expressions
of interest in our study.
                                       APPENDIX

                               INSPECTION CONTACTS

      American Association for the Continuity of Care

      American Association of Retid Persons

      Acuson , Inc.

      Advanced Technology Laboratories

      American Association for Respiratory Cae

      American Association of Medical Assistants

      American College of Cardiology

      American College of Radiology

      American Imaging Association

10.   American Institute of Ultrasound in Medicine

11.   American Medical Technologists

12.   American Registr of Clinical Radiogrphy Technologists

13.   American Registr of Diagnostic Medcal Sonogrphers

14.   American Society of Echocardiography

15.   American Society of Internal Medicine

16.   CCI/BCVT (fonnerly Cardiovascular Credentialing Internationalational Board
      for Cardiovascular Testing)

17.   Citech (Center for Infonnation on Technology for Health Care)

18.   Center for the Advancement of Ambulatory Monitoring

19.   Circadian

20.   Credentialing Commssion
21.   Diagnostic Health Services


22.   ECRI (fonnerly Emergency Car Research Institute)

23.   Federation of State Medical Boards

24.   Foo and Drug Administration
25.   Health Industr Manufacturers Association


26.   Hewlett- Packard

27.   Joint Commission on Accreditation of Healthcare Organizations

28.   Keith Mauney & Associates

29.   Marquette Electronics, Inc.

30.   Medical Technology Practice Pattern Institute

31.   National Board of Respiratory Car

32.   National Commission for Health Certifying Agencies

33.   National Electrcal Manufacturers Association

34.   National Organization for Competency Assurce

35.   National Society for Cardiovascular Technologists

36.   Nuclear Associates

37.   Office of Licensing & Certification Programs, State of Marland

38.   Public Citizen Health Research Group

39.   Radiation Measurements, Inc.

40.   Society of Diagnostic Medical Sonographers

41.   Society of Vascular Technology

42.   Ultramed, Inc.
